         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report

       Progress Report on Drinking
       Water Protection Efforts
       Report No. 2005-P-00021   


       August 22, 2005

Report Contributors:	              Ira Brass
                                   Gwen Butler
                                   Tim Roach
                                   Michael Wagg




Abbreviations

CCR          Consumer Confidence Report
DWSRF        Drinking Water State Revolving Fund
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
PAM          Program Activity Measure
SDWA         Safe Drinking Water Act
T/M/F        Technical, Managerial, and Financial




Photo caption:   A water tower in the South Central Regional Water District, Burleigh County,
                 North Dakota (EPA OIG photo).
                         U.S. Environmental Protection Agency                                              2005-P-00021

                         Office of Inspector General                                                     August 22, 2005





                         At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review               Progress Report on Drinking Water Protection Efforts
We conducted this review to
determine the progress made           What We Found
by the U.S. Environmental
Protection Agency (EPA) and          EPA and the States in this sample are making progress at helping water systems
its partners to protect drinking     better reach Congress’ goal of protecting drinking water from its source to the
water from contamination             consumer. EPA worked to develop guidance and provide other assistance for
from source to consumer.             States, and oversee State programs. The flexibility of the 1996 SDWA
                                     Amendments enabled States to better tailor drinking water protection approaches
Background                           to meet their needs. Because of the SDWA Amendments of 1996: 86 percent of
                                     source waters are assessed and protection efforts are beginning; more water
The Safe Drinking Water Act          systems have trained and certified operators; water systems are receiving
(SDWA) Amendments of                 technical, managerial, and financial capacity assistance; water systems have access
1996 contain provisions to           to low-interest loans; and consumers are receiving more information about their
help States and water systems        drinking water quality.
improve public health
protection. The provisions           Although States have more flexibility to tailor programs to meet their needs,
include:                             challenges remain. States reported budgets as being sufficient for current
• Assessing water sources.           activities, though implementing new drinking water regulations and the effects of
• Certifying system                  staff retirements are concerns. States face specific challenges in implementing
   operators.                        certain SDWA provisions, but there are opportunities to help reduce those
• Improving the technical,           obstacles to achieving safe drinking water.
   managerial, and financial
   capacity of water systems.        EPA’s measures are generally related to outputs that measure specific program
• Providing funding for              activities performed. The Agency links these activities to the long-term goal of
   infrastructure                    “Clean and Safe Water.” There are difficulties in measuring progress toward its
   improvements.                     long-term goal, however, because activity measures do not yet exist for all SDWA
• Providing funding to States.       provisions. EPA has limited State reporting requirements, and the integration of
• Keeping the public                 various programs makes it harder to measure the impact of each program.
   informed.                         Measuring the long-term outcomes of drinking water programs is important in
                                     determining whether programs produced intended results and public health is
For further information,             protected.
please contact our Office of         W
Congressional and Public               What We Recommend
Liaison at (202) 566-2391.

To view the full report,             Due, in part, to the breadth of this study, we are only making recommendations in
click on the following link:         two areas. We recommend that EPA identify methods to improve the Consumer
www.epa.gov/oig/reports/2005/        Confidence Report, because we found this to be pertinent to all eight States
20050822-2005-P-00021.pdf
                                     covered by our review. We also recommend that EPA continue to develop
To view a supplemental report        measures for individual SDWA provisions. We encourage the Assistant
with additional details, click on:   Administrator for Water to support the drinking water program’s efforts to
www.epa.gov/oig/reports/2005/        develop indicators based on a logic model for the Public Water System
20050822-2005-P-00021A.pdf           Supervision Program.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL





                                         August 22, 2005

MEMORANDUM

SUBJECT:              Progress Report on Drinking Water Protection Efforts
                      Report No. 2005-P-00021

FROM:                 Dan Engelberg /s/
                      Director of Program Evaluation, Water Issues

TO:                   Benjamin Grumbles
                      Assistant Administrator for Water

This is our final report on progress made by the U.S. Environmental Protection Agency (EPA)
and its partners to protect drinking water from contamination. The cooperation of several EPA
regions and States contributed significantly to this report. Their participation is appreciated.

This report contains findings that describe the issues identified by the EPA Office of Inspector
General (OIG) and recommended corrective actions. This report represents the opinion of the
OIG, and the findings contained herein do not necessarily represent the final EPA position. Final
determinations on matters discussed in this report will be made by EPA managers in accordance
with established audit resolution procedures.

The OIG issued a draft report on June 21, 2005, and a supplemental report on July 1, 2005, to
EPA for review and comment. A response was submitted on July 21, 2005. EPA's response
highlighted its efforts to identify program measures that better demonstrate the effectiveness of
activities undertaken to protect drinking water quality and public health. EPA responded to the
OIG recommendation that methods be identified to improve the Consumer Confidence Report by
noting that it already plans to convene a working group to evaluate public information
requirements under the Safe Drinking Water Act. The OIG has incorporated these comments, as
well as the technical corrections and supplemental information provided by EPA, into the final
report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objections to the further
release of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig. In addition to providing a written response, please e-mail an electronic
version to roach.tim@epa.gov.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0830
or Tim Roach at (312) 886-3026.
                                 Table of Contents 

At a Glance


Chapters
   1   Introduction ...........................................................................................................      1


               Purpose ..........................................................................................................    1         

               Background ....................................................................................................       1         

               Scope and Methodology.................................................................................                2

               Results in Brief ...............................................................................................      3


   2   Progress Made Implementing SDWA Provisions...............................................                                     4


               Protecting Source Waters ..............................................................................               4

               Training and Certifying Water System Operators...........................................                             6

               Acquiring Technical, Managerial, and Financial Capacity ..............................                                8

               Funding Infrastructure ....................................................................................          11         

               Funding Protection Activities ..........................................................................             15         

               Informing Public about Drinking Water Quality...............................................                         15 

               Conclusions ....................................................................................................     17         


  3    Challenges Remain Regarding SDWA Implementation.....................................                                         18     


               State Funding and Staffing Challenges ..........................................................                     18 

               Effect of New Regulations on States ..............................................................                   20 

               Water System Resource Shortages ...............................................................                      20 

               Other Challenges Involving Key Individual Activities......................................                           21 

               Conclusions ....................................................................................................     25         

               Recommendation ...........................................................................................           25         

               Agency Response and OIG Evaluation...........................................................                        26 


  4    Current Performance Measures Leave Extent of Progress Uncertain .............                                                27     


               EPA’s Current Performance Measurement System .......................................                                 27 

               Measuring the Extent of Progress Uncertain..................................................                         29 

               Despite Uncertainty, Efforts Made to Better Measure Performance...............                                       31 

               Program Assessment Rating Tool Underscores Importance of 

                   Performance Measures ...........................................................................                 32 

               Conclusions ....................................................................................................     33         

               Recommendation ...........................................................................................           33         

               Agency Response and OIG Evaluation...........................................................                        33 

Appendices
 A   Specific Provisions of 1996 SDWA Amendments (Public Law 104-182)..........                                                  34    


 B   Prior SDWA-Related Reports ...............................................................................                  35    


 C   Agency Response to Draft Report ......................................................................                      36    


 D   Distribution ............................................................................................................   45

                                Chapter 1
                                 Introduction
Purpose
          We sought to determine the progress made by the Environmental Protection
          Agency (EPA) and its partners to address Congress' intended goal in the 1996
          Safe Drinking Water Act (SDWA) Amendments to protect drinking water from
          contamination. More specifically, we wanted to determine whether State
          programs are operating as planned and having the desired effect. Our study also
          sought to identify opportunities and challenges for future progress. This report
          details how successful EPA and its partners have been at ensuring:

          a. 	 Drinking water sources are protected from contamination;
          b. 	 Operators of public water systems are adequately trained and certified;
          c. 	 Water systems have adequate technical, managerial, and financial (T/M/F)
               capacity;
          d. 	 Water systems have adequate infrastructure;
          e. 	 State resource funding levels support adequate oversight of drinking water
               systems; and
          f. 	 The public is well informed about its drinking water quality.

Background
          Congress passed the SDWA Amendments of 1996 to protect drinking water
          quality from its source to the consumer. These Amendments built upon the
          original 1974 Act and the major amendments of 1986 by modifying existing
          requirements or creating new initiatives. Some of the new or modified activities
          undertaken because of the 1996 Amendments include: assessing drinking water
          sources; training and certifying water system operators; assisting water systems
          with developing T/M/F capacities; funding water system infrastructure
          improvements; and informing consumers about the quality of drinking water.
          States receive additional funds from the Federal Government to implement these
          and other activities. Specific provisions of the SDWA Amendments are in
          Appendix A.

          Efforts to implement these activities are believed to be more effective when
          integrated, meaning that they are interdependent and interlinked. For example,
          support for developing source water protection plans can be achieved when
          communities know of potential contaminant threats. If water system managers
          are knowledgeable of potential contaminants (as a result of the source water
          assessments), then they have an opportunity to implement source water protection
          plans or otherwise ensure that treatment can remove the contaminant. If there are
          contaminants, a certified operator is the one who needs to determine how to treat



                                           1

         the water. When water system improvements are necessary, the owners may
         apply for low-interest loans through the Drinking Water State Revolving Fund
         (DWSRF) that had been established by Congress. Finally, States can help water
         systems protect drinking water quality by assessing T/M/F capacities and
         providing assistance to water systems.
         EPA, the States, and water systems share responsibilities for protecting drinking
         water. EPA is responsible for setting and enforcing national drinking water
         regulations, provides assistance and oversight for State programs, and provides
         some funding. A State may accept primary enforcement responsibilities
         (“primacy”) for its drinking water program under an agreement with EPA. The
         Navajo Nation, all States and territories (with the exception of Wyoming, as well
         as the District of Columbia and American Indian Tribes) have primacy. Water
         systems are responsible for operating within the requirements of EPA and State
         regulations.

         To help pay the costs of State assistance and oversight of water systems, a
         national Public Water System Supervision grant provided an average of
         $88.7 million per year to implement drinking water programs during the Fiscal
         Year 2000 to 2004 time period. When EPA first made this funding available in
         Fiscal Year 1976, States received approximately $43.5 million (constant 2003
         dollars). Federal and State funds support oversight and assistance activities to
         protect drinking water quality, such as conducting sanitary surveys, helping water
         systems maintain compliance, and undertaking enforcement actions.

Scope and Methodology
         We performed our evaluation in accordance with Government Auditing Standards
         issued by the Comptroller General of the United States. We conducted our field
         work from June 2004 to January 2005. We selected eight States for our review:
         Arkansas, Hawaii, Minnesota, New York, North Dakota, Oklahoma,
         Pennsylvania, and South Dakota. EPA regional offices identified these States,
         among others, as being successful in implementing the drinking water protection
         programs under review in this assignment.

         We chose to conduct field work in States that are considered best cases because, if
         those States were all experiencing similar problems, it could potentially help point
         to national issues of concern. Since we focused on the States considered
         successful at implementing drinking water protection programs, the results of this
         study cannot be used to make general conclusions about drinking water protection
         for the nation as a whole.

         As part of field work, we conducted structured interviews with managers and staff
         in the eight States selected for review. Prior to the start of field work, we
         interviewed one manager each from Indiana and Wisconsin to discuss drinking
         water program implementation challenges.



                                          2

           We interviewed staff and managers at EPA Headquarters and regional offices, and
           reviewed EPA guidance documents and other materials produced to assist States
           and water systems with implementing drinking water programs and activities.
           During site visits, we collected information related to State implementation of
           SDWA provisions, and met with operators of six water systems. We also
           interviewed representatives from non-governmental organizations that provide
           assistance to water systems (“third party assistance providers”), and ones that
           represent the States and the drinking water industry.

           While a large-scale analysis of selected SDWA provisions has not been the focus
           of previous studies, some drinking water reports have been issued by EPA's
           Office of Inspector General (OIG), the Government Accountability Office, and
           the Association of State Drinking Water Administrators. Appendix B provides
           details on prior reports. Based on the Office of Ground Water and Drinking
           Water’s response to the draft report, we made minor revisions to the report text.
           Appendix C contains the Agency response to the draft report.

Results in Brief
           EPA, State, and third party activities indicate that water systems are receiving
           assistance to protect drinking water from its source to the consumer. EPA worked
           to develop guidance and provide other assistance for States, and oversee State
           programs. The States have been given flexibility in developing new approaches,
           in accordance with the 1996 SDWA provisions, and States have tailored programs
           to fit their needs. It is a sensible way for States and water systems to maximize
           limited resources. Also, the emphasis on stakeholder participation is an example
           of how citizens and interest groups could be drawn into the drinking water
           protection process.

           Despite the progress made, challenges remain. These involve overall systemic
           issues, most notably funding and staffing limitations, as well as challenges unique
           to each activity. Further, the effects of assistance activities are not fully certain
           because the current method of measuring the success of drinking water protection
           activities is limited. Current measurement is tied to outputs which, while
           important, do not actually indicate whether water quality has improved. While we
           report about States’ efforts to improve water system performance, we are unable
           to determine whether the programs have the desired effect of improving
           protection of human health. EPA and States are in the process of developing
           additional measures. This work is made difficult, however, by the integrative
           nature of the SDWA provisions, since numerous factors impact drinking water
           quality.

           Our specific findings are discussed in Chapters 2 through 4, and additional details
           are provided in a supplemental report.




                                             3

                                Chapter 2
    Progress Made Implementing SDWA Provisions
          EPA and the States reviewed are making progress at helping water systems better
          protect drinking water from source to consumer. The progress described is
          related to the introduction of new drinking water protection requirements, based
          on the 1996 SDWA provisions. The relationship between activities and the goal
          of "Clean and Safe Water" is discussed in Chapter 4. Although States have
          primary responsibility for implementing drinking water protection programs,
          EPA worked to develop guidance, assist States, and oversee State programs. The
          flexibility of the 1996 SDWA Amendments enabled States to better tailor
          drinking water protection approaches to meet their needs. The States in our
          sample provided the following examples of how drinking water protection
          activities have increased:

          •   Source waters are now assessed and some protection activity is underway.
          •   More water systems have trained and certified operators.
          •   Water systems are now receiving T/M/F capacity assessments and assistance.

          While Federal, State, and third parties are working to implement the SDWA
          provisions, the challenges presented in Chapter 3 indicate that there is still work
          to do. Details on the progress made regarding the SDWA provisions are outlined
          in the following chapters. Additional information about State and third party
          activities is available in a supplemental report.

Protecting Source Waters
          Congress created a Source Water Assessment and Protection Program in the 1996
          Amendments. “Source” refers to the areas from which public water systems
          receive supplies of drinking water, including rivers, lakes, or underground
          aquifers. The premise is that preventing contaminants from entering a drinking
          water supply is more efficient than trying to remove those contaminants later
          during the treatment process. The Amendments required each State to develop
          and implement a source water assessment program to analyze existing and
          potential threats, with the intent of spurring protection efforts.

          EPA Efforts

          Although source water assessment and protection activities typically occur at the
          State and local level, these activities proceed with support from EPA. Congress
          authorized EPA to allow the use of DWSRF set-aside funds for source water
          protection. From July 1, 1996, to June 30, 2004, States spent roughly
          $138.5 million in set-asides on source water assessments and protection. EPA


                                           4

also provides oversight. State primacy agencies had to have their source water
assessment programs approved by an EPA regional office before they could begin
work on their assessments. In addition, EPA provided States with guidance
documents and source water program measures. The Agency also set national
goals for the development and implementation of source water protection
strategies (see Chapter 4).

EPA disseminates source water protection information to a range of stakeholders.
In June 2003, EPA held a National Source Water Protection Conference that drew
participants from 47 States, the District of Columbia, two Canadian provinces,
utilities, technical assistance providers and the health care industry, among others.
EPA's Office of Ground Water and Drinking Water is also compiling examples of
good source water protection programs. The Agency has made 85 case studies of
local source water protection programs and six multi-state case studies available
on its Web site. Model protection ordinances for ground and surface water
resources are also available from EPA.

EPA's Office of Ground Water and Drinking Water works with other Agency
programs as well. In 2004, the Office of Ground Water and Drinking Water
inaugurated a joint initiative with the Office of Underground Storage Tanks aimed
at reducing the threat that leaking underground storage tanks pose to drinking
water sources throughout the nation. This initiative has resulted in more of the
leaking underground storage tanks located in source water protection areas being
targeted for inspection.

State Efforts

Source water assessments had been completed for 86 percent of the nation’s
public water systems by February 2005. Seven of the eight States visited had
completed their required source water assessments, while the eighth
(Pennsylvania) had completed all but 6 percent of its assessments. The
assessments have produced benefits for States. Two of the States (Minnesota and
South Dakota) said they used the assessments to educate water system operators
about drinking water sources. The assessments also provided New York and
South Dakota with better data on potential contaminant sources.

Although the SDWA Amendments did not require utilities to develop source
water protection plans, Congress intended for source water assessments to lead to
protection. Congress also included provisions for establishing "voluntary,
incentive-based" source water protection partnerships. We found that States were
involved with source water protection, although it is difficult to determine the
extent to which source water strategies have been implemented because States are
not required to report this information (see Chapter 4).

Both Minnesota and Pennsylvania, for example, are engaged in source water
protection activity:



                                  5

                 •	 Pennsylvania’s "Growing Greener" Program provides grants to fund local
                    efforts to develop source water protection plans. Pennsylvania officials stated
                    that local governments often lack the funding necessary for full source water
                    protection (see Chapter 3).

                 •	 Minnesota staff work with local governments to develop source water
                    protection ordinances.

                 Source water protection has also been the occasion for inter-agency cooperation at
                 the State level:

                 •	 Staff at the North Dakota Department of Health use hydrogeologic
                    information from the State Water Commission and the U.S. Geological
                    Survey to help define source water protection areas.

                 •	 In Minnesota, liaison activity between the State Pollution Control Agency's
                    Leaking Underground Storage Tank program and the Department of Health's
                    wellhead protection work has been incorporated into the regulations
                    associated with both programs.

                 Third Party Involvement

                 Third party assistance providers indicated involvement with source water
                 protection as well. Arkansas Rural Water Association staff members have helped
                 some water systems construct source water protection programs, while
                 representatives from rural water associations in North Dakota and South Dakota
                 reported promoting source water protection at the local level. A National Rural
                 Water Association staff person stated that the Association has completed and is
                 presently implementing approximately 100 Source Water Protection Plans. One
                 hundred thirty-three additional Source Water Protection Plans are currently in
                 progress.

Training and Certifying Water System Operators
                 After drinking water enters a treatment facility, the water system operators, who
                 are responsible for monitoring, operating, and maintaining the system to meet
                 water quality standards, represent a key protective barrier to contamination.
                 Operator Certification Guidelines require that every community and non-transient
                 non community water system1 have at least one certified operator. States are


1
  A community water system is a public water system with at least 15 service connections or serves an average of at
least 25 people for at least 60 days per year. A non-transient non community water system is a public water system
that regularly supplies water to at least 25 of the same people for at least 6 months per year, but not year-round;
examples include schools, hospitals and office buildings that have their own water systems. For the purposes of this
report, we will collectively refer to both as “water systems.”


                                                         6

responsible for adopting and implementing an operator certification program that
meets the requirements of the Guidelines.

EPA Efforts

Although operator certification is a State-implemented program, EPA provides
assistance by developing Guidelines (as required by the Amendments). The
Agency also provides States and water systems with training materials through its
Drinking Water Academy. EPA reviews State programs to see if they are
consistent with the Guidelines and provides funding through the Expense
Reimbursement Grant Program.

EPA has approved operator certification programs in all 50 States and Puerto
Rico. Puerto Rico was the last to receive approval, having been approved on
September 30, 2002. The Agency judges all of these programs to be consistent
with its Operator Certification Guidelines.

Small system operators were reported as often lacking the time or resources
necessary to attend training (see Chapter 3). The Expense Reimbursement Grant
Program, funded from the national DWSRF appropriation, provided grants to
States to help offset the cost of training small water system operators. As of
December 2004, States had used $14 million of the Expense Reimbursement
Grant Program's allocation of $135 million for such items as:

•   operator fees
•   training course fees
•   development of new training courses
•   tailoring of existing training courses
•   per-diem reimbursements for unsalaried operators
•   travel mileage
•   grant program administration

State Efforts

Current reporting makes it difficult to determine, at a national level, the extent to
which water system operators are certified. EPA recommends that States report
the number of water systems required to have a certified operator and the number
of water systems without an “Operator in Responsible Charge.” While Arkansas’
2003 Operator Certification Report lists the number of water systems lacking a
certified operator, Hawaii’s Operator Certification Report for State Fiscal Year
2004 simply lists the number of public water systems that have at least one
certified operator on staff. It is not clear how many of Hawaii’s water systems
lack a certified operator. Oklahoma’s Operator Certification Report also omits
any information about the number of water systems lacking a certified operator.




                                  7

          Nonetheless, States are still active in the operator certification arena. States are
          responsible for administering operator certification exams and developing training
          programs for water system operators. EPA’s Operator Certification Guidelines
          provide States the opportunity to tailor programs to accommodate the needs of
          water systems. Small water system operators, for example, may not need the
          same level of training as do large system operators. Additionally, State drinking
          water program managers have flexibility in the design and administration of
          exams and training requirements. For example:

          •	 Minnesota water system operators must take separate examinations for each
             water system classification and renew their certificates every 3 years.

          •	 Pennsylvania’s operator certification exam program consists of two general
             exams (wastewater and drinking water), a distribution exam, a wastewater
             collection exam, 14 technology-specific exams, and 2 exams specifically for
             small systems.

          •	 Arkansas water system operators must attend 40 to 96 classroom hours for
             each license.

          •	 New York requires exams to test operator competency at the end of each
             course the operator completes.

          All eight States in this study received an allotment from the Expense
          Reimbursement Grant Program to support small system operator training
          activities. However, funding for this program was only authorized through 2003;
          once a State’s grant monies are exhausted, that State must identify other sources
          of funding. An EPA staff member described several options: (1) use the DWSRF
          2 percent set-aside for small system technical assistance; (2) make more use of
          State Rural Water affiliates or other drinking water organizations; or (3) consider
          operator certification and training a water system capacity building activity that
          can be supported through rate increases.

          Third Party Involvement

          Staff in all eight States reported that they contract or partner with third party
          organizations – such as State rural water associations, the Rural Community
          Assistance Program, and colleges and universities – to provide training for water
          system operators.

Acquiring Technical, Managerial, and Financial Capacity
          Ensuring both that all new systems commence operations with T/M/F capacity
          and existing water systems develop these capacities is critical to their successful
          operation. Collectively, these three competencies are intended to prevent drinking
          water contamination or treat water so that it meets regulatory standards.


                                           8

•	 Technical capacity is when a water system employs a certified operator, has
   an adequate water source, and adequate infrastructure.

•	 Managerial capacities are those that relate to ownership accountability,
   staffing, management, and communicating to customers.

•	 Financial capacity refers to revenue sufficiency, fiscal controls, and
   creditworthiness.

The linkages between these three competencies constitute a road map for
protecting drinking water from its source to the consumer. For example, a water
system with T/M/F capacity is one that has a certified operator that is
knowledgeable of the system’s operations as well as potential source
contaminants. The system communicates with the public through annual
Consumer Confidence Reports or, if a violation occurs, through Public Notices.
Finally, a system with capacity is one that manages assets to cover operating
costs, necessary repairs, and upgrades.

Congress intended for States to have the legal authority or other means to ensure
that, after October 1, 1999, all new water systems could demonstrate T/M/F
capacity. States without this authority would lose 20 percent of their DWSRF
allotment. By August 6, 2000, States had to develop and implement a strategy to
assist public water systems in acquiring and maintaining T/M/F capacity or lose
10 percent of the Fiscal Year 2001 DWSRF allotment. EPA reported that all 50
States and Puerto Rico met the 1999 and 2000 deadlines.

EPA Efforts

EPA’s capacity development assistance activities include publishing guidance and
handbooks, conducting training courses, and providing direct assistance through
cooperative projects.

•	 Guidance documents available though the EPA Office of Ground Water and
   Drinking Water’s Web site include information about: (1) small system
   T/M/F capacity building, (2) water affordability and rate-setting, (3) tribal
   systems, (4) variances and exemptions, and (5) treatment technologies.

•	 EPA’s Drinking Water Academy has training courses for States and water
   systems that are designed to enhance T/M/F capacity knowledge.

•	 Staff members in EPA Regions 3 and 6 are participating in a capacity building
   activity known as the Area-Wide Optimization Program. This program is a
   strategy for targeting groups of higher-risk drinking water systems for
   assistance.



                                 9

EPA must also annually review State implementation of capacity development
strategies and withhold 20 percent of the DWSRF allotment from States not
successfully documenting ongoing implementation of the capacity development
strategy. The September 2003 EPA OIG report, Impact of EPA and State
Drinking Water Capacity Development Efforts Uncertain (2003-P-00018), noted
that regional EPA staff made no withholding recommendations. EPA, however,
committed to developing an assessment tool and program measures so that
withholding determinations may be applied on a common set of national goals
and measures. The Capacity Development Assessment Tool is projected to be
complete by October 2005, and the Program Measures are supposed to be done by
December 2006.

The eight States in this sample described ongoing implementation activities,
which included approaches to assessing water system T/M/F capacities and
providing assistance. State reports were less consistent about measuring water
system improvements after capacity assistance was provided. Three States did
not include information about measures in progress reports (South Dakota,
Hawaii, and Arkansas). Four States (Minnesota, New York, North Dakota, and
Oklahoma) reported progress with capacity assistance through drinking water
compliance rates or reduction of systems in Significant Non-Compliance status.
Pennsylvania, meanwhile, tracked water system changes over time using a
quantitative and qualitative method. Additional information about State
assessment activities is provided in the supplemental report.

State Efforts

The States in this study reported helping water systems by assessing T/M/F
capacities through existing oversight activities, with some States being more
involved than others. More importantly, State efforts to build water system
T/M/F capacity are integrated into a variety of activities:

•	 Arkansas and North Dakota staff reported using sanitary surveys that contain
   questions about operator qualifications as well as the management, operations,
   and finances of public water systems. In Pennsylvania, results of the sanitary
   surveys are entered into a database as part of the process by which utilities are
   ranked for capacity assistance.

•	 All eight of the States visited required that systems have the requisite T/M/F
   capacities to maintain upgrades and pay back loans before they could receive
   DWSRF assistance.

State staff also described regulatory oversight functions as capacity building
activities. In Minnesota, staff members collect water samples from water
systems, and immediately provide technical assistance to any water system that
has two positive bacteriological samples. In Hawaii, State drinking water staff
members and staff from the Board of Water Supply collect and analyze chemical



                                 10

          samples for systems. North Dakota water system operators receive sample bottles
          through the mail. While the States in this sample reported progress at assessing
          T/M/F capacity and providing assistance, Chapter 3 describes some of the
          problems associated with providing this type of assistance.

          Third Party Involvement

          All eight States rely upon third parties to provide capacity assistance to water
          systems. Third party activities include:

          •	 A manager at the North Dakota Rural Water Systems Association reported
             that during vulnerability assessments, Association staff passed on to the State
             any T/M/F issues they uncovered during water system visits. The Association
             also reported developing an operator handbook that has templates of sample
             plans, and water sampling test regimens.

          •	 Oklahoma Rural Water Association staff members go to systems that are
             identified by State staff as having compliance problems. The Oklahoma
             Water Resources Board and the U.S. Department of Agriculture (Rural
             Development) assist with managerial deficiencies.

          •	 Hawaii contracted with the Rural Community Assistance Corporation, as
             South Dakota did with the South Dakota Association of Rural Water Systems,
             to provide T/M/F assistance and training to small water systems.

Funding Infrastructure
          Congress recognized that costly infrastructure repairs and upgrades were
          necessary for water systems to maintain compliance with drinking water
          regulations. Broken pipes in a distribution network can, after all, result in
          outbreaks of waterborne disease. To help finance infrastructure improvements,
          Congress established the DWSRF in the 1996 SDWA Amendments. The
          DWSRF offers low-interest loans to State-identified, high-priority drinking water
          infrastructure improvement projects. For a water system to receive DWSRF
          funds, it must be able to demonstrate it has the requisite T/M/F capacities to
          maintain upgrades and pay back a loan.

          While States can finance infrastructure projects with their DWSRF allotments,
          they may also use a portion of this money to:

          •	 develop and implement capacity development, source water protection, and
             operator certification programs;




                                           11

•   provide technical assistance to systems serving fewer than 10,000 people;

•   administer the DWSRF program; and

•   provide local assistance.

EPA reported that, as of June 2004, States had reserved 16 percent of their
DWSRF capitalization grants to fund such activities.

EPA Efforts

EPA is responsible for the oversight of DWSRF funds, with States receiving
annual allocations in proportion to the needs identified in EPA's periodic Needs
Surveys (provided that each State receive a 1 percent minimum share). Each
year, States prepare an Intended Use Plan detailing the projects that the State has
prioritized for assistance, and then forward the plans to EPA regional offices for
approval. All of the States visited had created Intended Use Plans.

EPA tracks the programmatic and financial use of funds in the program.As of
June 30, 2004, States had provided nearly $8 billion to drinking water projects.
Some 83 percent of the funds available had gone to assist projects. While the
average DWSRF utilization rate for the eight States visited (80 percent) was
slightly less than the national average, the eight-State average is affected by
Hawaii's comparatively low utilization rate (see Table 2.1).

Table 2.1: DWSRF Assistance Provided to Projects
as a Percentage of Total Funds Available
 State                            Percent
 Arkansas                          82
 Hawaii                            32
 Minnesota                         89
 New York                          92
 North Dakota                      84
 Oklahoma                          67
 Pennsylvania                      99
 South Dakota                      97
 Eight-State Average               80


EPA also facilitates information sharing. The Agency has issued guidance on the
DWSRF program in addition to several reports and fact sheets on select aspects of
the DWSRF program. A national State/EPA workgroup meets to address ongoing
implementation issues related to the DWSRF. The group's November 2003
meeting covered water system participation in the Drinking Water Needs Survey,
innovative State infrastructure financing mechanisms, and indicators for
environmental/public health benefits in the DWSRF program. In addition to the


                                  12

                        training that the Agency offered to State and Regional staff in the past, EPA
                        provides DWSRF information to States at an annual meeting.

                        Other Federal Agencies’ Involvement

                        EPA is not the only Federal agency that funds drinking water infrastructure
                        projects. The U.S. Departments of Agriculture, Commerce, Interior, and Housing
                        and Urban Development all provided drinking water infrastructure funding prior
                        to the 1996 SDWA Amendments. With the advent of DWSRF funding in Fiscal
                        Year 1997, Federal contributions to infrastructure projects increased (see
                        Figure 1).

                                   Figure 1 -- Total Funding - U.S. Environmental Protection Agency, U.S. Department of 

                                       Agriculture - Rural Utilities Service, Economic Development Administration & 

                                                           Bureau of Reclamation - FY 1991-2004 

                                                                   (constant FY 2003 dollars)


                      2.5
Billions of Dollars




                      2.0




                      1.5




                      1.0




                      0.5




                      0.0
                            1991    1992    1993   1994    1995    1996      1997     1998       1999   2000   2001   2002   2003   2004
                                                                          Federal Fiscal Years




                        State Efforts

                        States supplement Federal infrastructure funds with their own monies. A
                        November 2001 Government Accountability Office report, Water Infrastructure:
                        Information on Federal and State Financial Assistance (GAO-02-134), identified
                        78 State drinking water infrastructure funding programs across the country. Six
                        of the States visited have created infrastructure funding programs since 1996 (see
                        Table 2.2).




                                                                     13

Table 2.2: State Infrastructure Funding Programs (1996 – present)

 State           Program                                    Description                             Year Created
 Arkansas        Water, Waste Disposal and Pollution        Provides bond issues for water              1997
                 Abatement Facilities General Obligation    supply projects
                 Bond Program
 North Dakota    Water Development Trust Fund               Funds long-term water development           1999
                                                            and management needs
 New York        Financial Assistance to Business Water     Funds construction, upgrades,               1996
                 Program                                    improvements, or replacement of
                                                            infrastructure, to provide water
                                                            supplies to businesses

                 Pipeline for Jobs Fund Program             Provides funding for the creation,          1999
                                                            improvement, or extension of water
                                                            supply facilities

                 Drinking Water State Revolving Fund -      Provides direct payments for projects       1996
                 Hardship Assistance Program                in disadvantaged communities
 Oklahoma        Rural Economic Action Plan Grants          Provides grants to fund water line          1996
                                                            construction/repair, water treatment,
                                                            and water acquisition
 Pennsylvania    Infrastructure Development Program         Makes grants and loans to eligible          1996
                                                            applicants

                 Small Water Systems Consolidation          Provides grants for construction of         2000
                 Construction Grant Program                 water system interconnections, and
                                                            helps small systems pay for the
                                                            improvements necessary to acquire
                                                            systems
 South Dakota    Small Community Planning Grant             Provides small communities with up          1997
                                                            to $4,000 to help cover costs
                                                            associated with preparing an
                                                            engineering study and report


                Most States have also attempted to coordinate infrastructure funding sources.
                An October 2003 EPA report found that 45 States were coordinating water or
                wastewater infrastructure funding. Such coordination can produce efficiency
                gains. For example, Arkansas has a Water and Wastewater Advisory Committee
                that meets monthly to review preliminary engineering reports from systems
                seeking State or Federal assistance; coordination of funding requests has reduced
                delays associated with preliminary project approvals in Arkansas from 2-3 years
                to 60-90 days. Oklahoma's Funding Agency Coordinating Team, meanwhile,
                helped streamline the funding application process by creating common
                environmental/engineering report checklists that all Team partners now employ.

                States can use other means to ensure that water system infrastructure is adequate.
                All of the States visited exercise authority over infrastructure through the plan
                review and approval process. Systems must have their construction plans
                approved by State staff before they can make significant changes to their
                facilities. All of the sample States require that systems have the requisite T/M/F
                capacities to maintain upgrades and pay back loans before they can secure
                DWSRF assistance. Three States noted that systems had to have rate structures in


                                                      14

          place before they could receive DWSRF loans. Oklahoma systems, for example,
          cannot receive DWSRF loans if they have declining rate structures in place.

          To date, relatively little DWSRF loan principal has been repaid. Nationwide, just
          6 percent of DWSRF principal was repaid between July 1, 1996, and June 30,
          2004. Since most projects take 2 to 3 years to complete, with repayments
          beginning no more than 1 year after project completion, it understandably will
          take some time for DWSRF loans to be repaid. As of June 30, 2004, the eight
          States visited had repaid, on average, 7 percent of the DWSRF loan principal (see
          Table 2.3).

          Table 2.3: Percent of DWSRF Loan Principal Repaid

           State                           Percent
           Arkansas                           1
           Hawaii                             3
           Minnesota                          6
           New York                           9
           North Dakota                       4
           Oklahoma                           10
           Pennsylvania                       9
           South Dakota                       10
           Eight-State Average                7


Funding Protection Activities
          Various issues related to funding, such as the DWSRF, have already been
          discussed in this chapter. Comments from State staff about resources largely
          revolved around the challenge of balancing new responsibilities in a climate of
          resistance to increasing staff or budgets. These issues are discussed in Chapter 3.

Informing Public about Drinking Water Quality
          Congress intended for water systems to promptly notify consumers when a system
          exceeds allowable contaminant levels by issuing Public Notices. Congress also
          intended that drinking water consumers be informed annually about the quality of
          water they drink. To meet these goals, Congress directed EPA to revise rules that
          public water systems must follow regarding the form, manner, frequency, and
          content of a Public Notice; and establish rules that require community water
          systems to provide their customers with annual Consumer Confidence Reports
          (CCRs) about water quality.

          EPA Efforts

          EPA assists States and public water systems by providing materials useful for
          developing and implementing the Public Notification and CCR rules. EPA also


                                            15

developed software applications (CCRWriter and CCRiWriter) to help water
systems create CCRs, although State staff noted that these reports are difficult for
consumers to use when trying to learn about the quality of their drinking water
(see Chapter 3).

While we were unable to locate national compliance rates for the Public
Notification Rule, we did find compliance rates for the Consumer Confidence
Rule in EPA’s National Public Water System Compliance Report. National
compliance with the CCR Rule was 87 percent in 2002, the most recent year
available.

State Efforts

States are responsible for enforcement and oversight of the Public Notification
and CCR requirements. All eight States reviewed provide assistance, such as
training or consultation, to help water systems comply with these requirements.
For example:

•	 North Dakota's public water systems receive a packet each February that
   details CCR requirements. State staff also customized the sample Public
   Notices that EPA provides in its Public Notification Handbook. A Public
   Notice template is included in the Notice of Violation letters sent to utilities.
•	 Staff in Minnesota, Arkansas, New York, and South Dakota reported assisting
   water systems by preparing CCRs or providing information that can be
   incorporated into the reports.

We only located compliance rates for the Public Notification Rule in North
Dakota. In 2003, 88 percent of North Dakota water systems required to submit
public notices to customers did so. Compliance rates for the CCR were generally
higher in the eight States reviewed than for the nation as a whole, as shown in
Table 2.4:
Table 2.4: 2002 CCR Rule Compliance Rate for
Eight States Reviewed in Comparison to National Average

                                 Compliance
 State                             Rate
 Arkansas                               97
 Hawaii                              100
 Minnesota                              99
 New York                               97
 North Dakota                        100
 Oklahoma                               88
 Pennsylvania                           71
 South Dakota                           91
 National Average                       87




                                  16

         State staff members are also implementing a variety of programs that further
         educate consumers about drinking water. Minnesota's Department of Health
         partnered with a group of non-profit organizations to develop the Drinking Water
         Institute. This Institute is designed to help teachers integrate drinking water
         topics into school curricula. Arkansas publishes quarterly newsletters, and New
         York has expanded its drinking water Web sites. South Dakota staff reported
         participating in water festivals where some primary school students get the
         opportunity to participate in various water science activities. Staff in Hawaii
         reported assisting the University of Hawaii in developing educational materials on
         rainwater catchment systems.

         Third Party Involvement

         Third party organizations have partnered with States to assist water systems with
         CCR reporting requirements. For example, Pennsylvania staff partnered with the
         Pennsylvania Rural Water Association to create a half-day CCR training program.
         The South Dakota Association of Rural Water Systems produces a CCR template,
         assists systems with CCR Rule violations, and provides systems with Public
         Notice information.

Conclusions
         The variety of activities and approaches to improving drinking water protection,
         as described in this chapter, indicates that EPA, the States, and the third parties
         interviewed during this study are providing assistance to water systems in
         protecting drinking water from its source to the consumer. Source water
         assessments are mostly complete, and efforts are underway in some States to
         move to implementation of source water protection plans. Both community and
         non-transient non community water systems (such as schools and hospitals) are
         now required to have certified operators. T/M/F capacity assistance for water
         systems has also become more formalized. The DWSRF funds a portion of State
         drinking water protection activities and provides low-interest loans to high
         priority water system improvement projects. Consumers are receiving more
         information about the quality of their drinking water through CCRs. While staff
         in the States visited discussed the progress they have made implementing their
         programs, there are still ongoing challenges, as discussed in Chapter 3.




                                          17

                                 Chapter 3
Challenges Remain Regarding SDWA Implementation
          State staff and managers noted challenges related to the implementation of
          provisions in the 1996 SDWA Amendments. Key challenges are related to
          funding and resource concerns. Specific challenges also remain with the
          implementation of certain SDWA provisions. Since many challenges relate to
          resource constraints, EPA’s role in changing conditions may be limited.
          Nevertheless, opportunities exist to help reduce the obstacles to ensuring that safe
          drinking water is available to consumers.

State Funding and Staffing Challenges
          Staff and managers in seven of the eight States in our review reported that their
          programs could be impacted by new drinking water regulations and staff
          retirements. The drinking water branch manager in Hawaii reported having stable
          funding, yet staff vacancies and the State rule development process will make it
          difficult for the State to meet its oversight requirements.

          While the DWSRF set-asides help pay for staff and third party assistance
          contracts, these funds did not eliminate all problems. The challenges described by
          some of the State staff mirror trends reported by the Association of State Drinking
          Water Administrators in its April 2003 report, Public Health Protection
          Threatened by Inadequate Resources for State Drinking Water Programs:

          •	 State legislatures do not want drinking water programs to hire staff and later
             face funding crises if the DWSRF is not funded by Congress.

          •	 State attempts to access DWSRF set-aside funds for implementation activities
             are met with significant competition from high-profile infrastructure needs.

          •	 Staffing caps prevent new hiring even if Federal dollars are available.

          By the Association’s estimates, drinking water funds covered 78 percent of
          drinking water program expenses in 2002 but will only meet 62 percent of
          expenses by 2006. Using the self assessment tool developed by the Association
          of State Drinking Water Administrators, Arkansas' staff reported that they are
          20 staff positions below the levels needed for full program implementation.
          To meet current workload requirements, managers eliminated or curtailed some
          outreach and education programs and reduced the frequency of sanitary surveys.

          While State staff reported having sufficient or stable funding for current activities,
          the effects of staffing shortfalls in Hawaii can serve as a potential indicator of the


                                            18

impacts of resource shortages. In 2004, a draft EPA end-of-year report noted that
the State had 6 vacancies in its 35-person drinking water protection branch. The
draft report stated that Hawaii had met approximately 30 percent of its sanitary
survey goals for State Fiscal Years 2002 and 2003 before exceeding performance
goals by 10 percent in 2004. EPA attributed the performance shortfall to an
increasing demand for rule development and implementation. Other States also
reported resource-related issues:

•	 Indiana's drinking water branch chief reported that the program’s funding has
   been static. Needs were met by shifting staff.
•	 Pennsylvania officials indicated that upcoming staff retirements will affect
   their drinking water program. By June 2005, all of the experienced regional
   managers and several field engineers will have retired. Staffing caps, coupled
   with the fact that new staff require years of training, make it difficult for the
   State to fill vacancies.

To help defray the costs of additional work associated with implementing the
SDWA provisions, States can “set aside” up to 31 percent of the annual DWSRF
capitalization grant. All of the States in our sample reported using set-asides, but
these additional funds did not eliminate staffing and funding shortfalls for various
reasons:

•	 In North Dakota, stakeholder groups sought to maximize the availability of
   infrastructure loan funds by not supporting the use of set-asides for program
   activity.

•	 An Oklahoma manager reported that, until recently, most DWSRF set-asides
   had been banked because the State could not hire people.

•	 South Dakota officials reported that additional Federal dollars would not solve
   their staffing challenges because a State staffing cap is in place.

•	 Hawaii staff reported not drawing upon on all available set-asides because of
   concerns that the DWSRF may not be a permanent funding source.

States can develop fee systems to help them defray the costs of implementing
drinking water protection activities. Customer-based fee systems are already in
place in four States. Monthly fee costs to consumers in Arkansas, Minnesota, and
Oklahoma ranged from 25 to 43 cents, with managers in Arkansas and Minnesota
seeking further fee increases of 10 cents per month. South Dakota staff noted that
their fees range from $10 for non-community water systems to a maximum of
$40,000 for community water systems. Managers in Arkansas, Minnesota, and
Oklahoma reported that fees support staff and pay for water sampling and/or
analysis. These fees, in fact, have allowed Minnesota's drinking water program to
not rely upon State general revenue funds. Some 50 percent of Minnesota's
drinking water protection budget comes from user fees.


                                 19

Effect of New Regulations on States
          Four States reported that the additional compliance and enforcement oversight
          work that accompanies new drinking water regulations will affect their ability to
          implement drinking water protection activities.

          •	 With each new Federal regulation, Pennsylvania staff reported that they were
             “losing ground.” While new regulations allow water suppliers a measure of
             flexibility, such flexibility shifts the burden of compliance determinations
             squarely to the drinking water program.

          •	 New York staff reported that new regulations will constrain resources. The
             State needs to develop a priority scheme for each county department to
             determine what work will and will not be done.

          •	 An Oklahoma manager noted that 70 to 80 percent of surface water systems
             will be out of compliance with the Disinfection Byproduct rule. The
             implementation of new regulations will result in less time for training and
             enforcement actions.

          •	 The drinking water programs in Pennsylvania, New York, and Hawaii invest
             staff resources in developing State versions of new Federal drinking water
             regulations. These resources are then not available for other activities.

          The use of third parties, such as State Rural Water affiliates or other
          organizations, is one approach to providing assistance that can help with State
          staffing issues. The ways in which third parties provide assistance to water
          systems are described in Chapter 2. In addition, the flexibility afforded States
          when adopting new drinking water regulations does not always result in reduced
          staff workloads. States have the option to develop regulations that are equal to or
          more stringent than EPA’s, but this process requires investment of State staff
          resources that are not spent helping water systems.

Water System Resource Shortages
          State staff also reported that water systems face resource challenges. For
          example:

          •	 North Dakota staff noted that the cost of infrastructure upgrades was an
             impediment to water systems, especially small ones.

          •	 New York staff reported that small systems may not have the resources to pay
             for training. Public officials, they said, did not recognize the importance of a
             certified operator and continuing education requirements.




                                           20

          •	 Staff in Arkansas, Hawaii, Oklahoma, and South Dakota all cited a lack of
             adequate compensation for water system operators.

          State staff noted that the obstacles water systems face can be addressed through
          outreach and the continued application of the SDWA's provisions:

          •	 In North Dakota, the Rural Water Systems Association conducts water board
             training to increase managerial competencies, and uses rate analyses to
             identify financial problems.

          •	 In Oklahoma, utilities applying for DWSRF loans can use a portion of the
             DWSRF to help pay for the up-front engineering costs associated with making
             an application for DWSRF funding.

          •	 In South Dakota, the State established a grant program which supports the
             initial planning/engineering work necessary for new projects in small
             communities.

Other Challenges Involving Key Individual Activities
          Protecting Source Waters

          While source water assessments are essentially complete in the States visited,
          State staff noted that it has been difficult to implement source water protection
          programs:

          •	 Pennsylvania officials stated that local governments often lack the funding
             necessary for full source water protection. Funding is particularly lacking for
             the purchase of land and conservation easements.

          •	 Staff in both Oklahoma and North Dakota noted that rural water systems lack
             jurisdictional control over land use decisions.

          •	 South Dakota staff stated that they have no control over whether individual
             communities decide to pursue "full” source water protection; full protection
             remains a "tough sell" in many parts of the State.

          Until recently, State source water protection work was also complicated by the
          fact that EPA had not issued final measures for the source water protection
          program. In March 2005, however, EPA published guidance to assist States in
          defining protected water sources.

          Even though there are impediments to protecting water sources, State staff also
          described efforts to encourage water systems to implement protection programs:




                                           21

•	 Pennsylvania holds free “watershed academies” for local officials, which
   include instruction on the elements of source water protection. A source
   water protection guidebook and template are also available on both the State
   Web site and CD-ROM.

•	 North Dakota staff reported that both education efforts and the source water
   assessments themselves have raised awareness of water resource issues. This
   heightened awareness has, in turn, led communities to become more involved
   in source water protection activities.

Training Water System Operators

Although every State in our sample has an EPA-approved operator certification
program in place, the water systems that they serve still face challenges related to
operator training and retention.

•	 A lack of adequate compensation for water system operators, especially at
   small systems, makes it difficult to attract and retain operators.
•	 Small system operators may lack the time or resources necessary to attend
   training.
•	 Management is reluctant to give water system operators time for training
   beyond that which is necessary to pass the state certification exam.

Nonetheless, there are efforts underway to reach out to water systems. Minnesota
staff, for example, reported that they had added locations for operator training and
testing throughout the State. Oklahoma instituted on-line training for water
system operators; this option has a 75-percent utilization rate.

Developing T/M/F Capacities

States in our sample reported that most challenges to implementing capacity
development strategies occurred at the water system level rather than at the level
of the State or EPA.

•	 Water systems may not be interested in developing managerial and financial
   capacities until they are required to do so for a DWSRF loan.

•	 Elected officials and municipal employees have many other responsibilities
   besides water system maintenance.

•	 There is a lack of guidance on what constitutes “adequate” managerial and
   financial capacity.

•	 Geographic isolation may make it difficult for some water systems to
   consolidate infrastructure.



                                 22

These impediments indicate that outreach needs to remain a long-term
commitment for States. In fact, States and third parties are pursuing outreach
opportunities.

•	 Arkansas requires utilities to create long-range system plans, although these
   plans need not be formally submitted for review.

•	 North Dakota staff members attend city council meetings if a water system
   operator is not adequately addressing problems.

•	 In Oklahoma, the Community Resource Group meets with water boards to
   discuss managerial and financial capacity issues.

Minnesota and New York are taking a different approach, having State staff and
third parties serve as the T/M/F information sources for water systems rather than
working to get all systems to develop these competencies. Other examples of
State and third party assistance are provided in Chapter 2.

Providing Adequate System Infrastructure

Infrastructure maintenance is the most costly investment a water system will
make. It is also important. Broken pipes in a distribution network can result in
waterborne disease outbreaks; a pipe leaking one gallon per minute will waste
525,600 gallons of water in a year's time. The cost of improving the nation's
drinking water infrastructure is also significant. In 2002, EPA estimated an
annual drinking water infrastructure funding gap of $7.7 to $22.3 billion.
DWSRF appropriations met, at most, 10.2 percent of estimated annual
infrastructure needs in Fiscal Year 2003.

Cost is not the only challenge facing State infrastructure programs. While staff in
every State reported having authority to approve water system construction plans
as part of a permit review process, State staff can seldom intervene prior to the
occurrence of a drinking water violation. In addition, State staff reported that the
4 percent DWSRF set-aside for loan administration will not be large enough to
continue covering the costs of managing the DWSRF. Staff in three States
(Arkansas, Hawaii, and South Dakota) indicated that the loan application process
and associated Federal requirements can also be onerous.

Nevertheless, States continue to address the problems that small communities
face:

•	 South Dakota's Small Community Planning Grants support the initial
   planning/engineering work necessary for new projects in small communities.

•	 Oklahoma uses a portion of the DWSRF to assist small water systems in the
   preparation of DWSRF loan applications.


                                 23

•	 Pennsylvania created its own revolving loan program in 1988 to address the
   environmental and public health needs of poorer communities.

Ensuring the Public Is Informed

In the eight States visited, staff reported that the primary consumer
communication vehicle – the CCR – is difficult for consumers to use when trying
to learn about the quality of drinking water or that they do not receive feedback
from consumers about the CCR. State staff cited several reasons for this
difficulty in understanding CCRs:

•	 The language in reports is either too complex or contains too much
   information for the average reader.

•	 There is a lack of consumer interest in CCRs.

•	 Providing information about drinking water quality may not be a priority for
   water system managers.

Data from EPA’s 2002 and 2003 Safe Drinking Water Hotline Annual Reports
indicate that CCRs generate some public interest, though the number of CCR-
related inquiries is a small proportion of all inquiries received (7 percent in 2002
and 8 percent in 2003). A large water system in Hawaii described its own
experience with consumer inquiries. The Honolulu Board of Water Supply
staffed a “help line” to answer questions regarding the CCRs when the reports
were first distributed in 1999, but the water system reported receiving so few
inquiries that it decided to quit staffing the hotline.

An EPA analysis of a 2003 Gallup survey indicates that CCRs fail to reach the
entire drinking water community because too little effort is made publicizing the
report requirements and the report’s availability to the public, not because
consumers are apathetic. While respondents to the Gallup survey indicated that
the CCRs were helpful and adequate (see Figure 2), State staff expressed concern
that the reports’ language was either too complex or contained too much
information for the general reader. The American Water Works Research
Foundation also found that most of the reports they reviewed used technical
language at a 13th grade level.




                                 24

                                       Figure 2




         Even so, both State and EPA staff suggested several opportunities for progress in
         the future:

         •	 An EPA staff person reported that the Agency intends to conduct a followup
            to the Gallup survey, and suggested that water systems should use CCRs as a
            marketing tool.

         •	 New York staff recommended funding research into the effectiveness of the
            CCR.

         •	 Minnesota staff suggested using a national work group to review issues
            associated with CCRs.

         While State staff reported that the CCRs can be difficult to understand, limited
         feedback from consumers and water systems in this eight-State sample does not
         permit any conclusions about the efficacy of the present regulation.

Conclusions
         While progress has been made in helping water systems improve their
         performance, challenges still exist. State resource shortages are an ongoing
         concern. Resource constraints are not likely to be resolved through Federal grant
         increases in the current environment of Federal deficits. State drinking water staff
         and managers described various ways to address problems. They also indicated
         that the flexibility Congress intended for States is resulting in some useful
         approaches to solving the ongoing challenges with drinking water protection.

Recommendation
         Of the various SDWA provisions reviewed in this study, the eight States only
         expressed similar concerns about the CCR’s ability to inform consumers. These


                                          25

         concerns either were related to the clarity of the reports or the lack of feedback
         from consumers. Since our study was broad and the State sample selection was
         too small to permit national generalizations, this Chapter only makes a
         recommendation in this area. Specifically, we recommend that the Assistant
         Administrator for Water:

         3-1 	   Identify methods to improve the CCR through the National Drinking
                 Water Advisory Council or other work group.

Agency Response and OIG Evaluation
         EPA responded to Recommendation 3-1 in a July 21, 2005, letter to the OIG (see
         Appendix C). The Agency stated that it will convene a working group to the
         National Drinking Water Advisory Council, in the fall of 2005, to evaluate public
         information requirements under the SDWA. The focus of this working group will
         be on the message and delivery of the public education materials that water
         utilities distribute when lead action levels are exceeded. We consider these
         actions to be appropriate for the recommendation and encourage this working
         group to also consider public education issues more broadly.




                                          26

                                Chapter 4
         Current Performance Measures Leave
             Extent of Progress Uncertain

         EPA’s current drinking water program performance measures leave the extent of
         progress uncertain. EPA’s 19 Drinking Water Program Activity Measures
         (PAMs) for Fiscal Year 2006 are generally focused on program activities rather
         than long-term outcomes. Further, measuring long-term outcomes is difficult
         because (a) EPA has limited State reporting requirements, and (b) the integration
         of drinking water protection activities makes it difficult to isolate the effect of any
         one provision on compliance rates. Despite these difficulties, efforts are
         underway to develop measures. In March 2005, EPA issued final guidance on
         source water program measures. EPA is also developing measures for capacity
         development activities. Measuring long-term outcomes may help to determine if
         the program's results justify further funding.

EPA’s Current Performance Measurement System
         EPA's efforts to ensure "Clean and Safe Water" include three sub-objectives that
         focus on reducing exposure to contaminants in drinking water, in fish and
         shellfish, and in recreational waters. As outlined in Figure 3 below, Sub-objective
         1, "Water Safe to Drink," aims to quantify human health protection with six
         numeric Strategic Targets and 19 PAMs. The example Strategic Targets and
         PAMs provided under Sub-objective 1 illustrate the difference between numeric
         targets and measures of program activity.




                                           27

           Figure 3 - Relationship between EPA Goals and Program Activity Measures


                               Goal - Clean and Safe Water


                    Objective - Protect human health by reducing exposure to
                    contaminants in drinking water, in fish and shellfish, and in
                    recreational waters




Subobjective 1 - Water                         Subobjective 2 - Fish and                                    Subobjective 3 -
Safe to Drink                                  Shellfish Safe to Eat                                        Water Safe for
                                                                                                            Swimming



                                                                       Strategic Targets
                                      By 2008, 95 % of the population served by Community Water Systems will receive drinking
                                      water that meets health-based standards for those requirements with which systems needed to
     6 Strategic Targets              comply as of December 2001.
                                      By 2008, 50 % of Community Water System source water areas will achieve minimized risk
                                      to public health.




                                                                    Program Activity Measures
     19 Program Activity Measures               Number of DWSRF projects that have initiated operations (cumulative)
                                                Percent of community water systems for which source water protection strategies
                                                are in place and are being implemented (cumulative)
                                                Number of Tribal community water systems that have completed a source water
                                                assessment consistent with national guidelines



               The Agency’s PAMs are used to monitor progress toward program
               implementation. The PAMs, collectively, are designed to help EPA ensure that
               95 percent of the population served by community water systems receives water
               that meets all applicable health-based drinking water standards by 2008 (Sub
               objective 1). The 95-percent compliance rate is an integral part of EPA's larger
               "Clean and Safe Water" goal.

               EPA's performance measurement system mirrors the “Simple Logic Model” (see
               Figure 4).




                                                           28

              Figure 4 - Logic Model*


                 Activities      Outputs          Short-term     Intermediate      Long-term
                                                  outcomes        Outcomes         Outcomes




              *The "Simple Logic Model" pictured in Figure 4 is adapted from McLaughlin & Jordan (1999).

          A logic model is a diagram or flow chart that shows how a program should work
          in theory. The "Simple Logic Model" describes how actions (activities) result in
          the delivery of products, goods, and services (outputs). Activities and outputs
          lead to a series of changes or benefits (outcomes), of which there are three types:

          •     Short-term outcomes - Most closely associated with program outputs
          •     Intermediate outcomes - Changes that result from short-term outcomes
          •     Long-term outcomes - A program's final impact

          EPA’s PAMs measure program activities, which, in turn, support Sub-objective 1
          ("Water Safe to Drink"). EPA's Office of Enforcement and Compliance
          Assurance has described compliance measures like Sub-objective 1 as
          intermediate outcomes. These intermediate outcomes support EPA’s long-term
          goal of "Clean and Safe Water."

          While PAMs have been established for a number of drinking water protection
          activities, they do not yet exist for all SDWA provisions. For example, none of
          the Agency's 19 PAMs address operator training or CCRs. While it is clear that
          the States in our sample have been active in both of these areas since 1996,
          progress is typically reported in terms of outputs, not long-term outcomes or
          results.

          Given the logic model's potential to better connect outputs to outcomes, an effort
          is presently underway to develop such a model for the Agency's Public Water
          System Supervision (PWSS) Program. EPA's Logic Model Development Work
          Group recognizes that the Agency's current Strategic Targets and PAMs do not
          fully communicate program accomplishments. The Work Group believes that a
          logic model will help EPA develop better measures for program
          accomplishments. They believe that a logic model will also help EPA:
          (a) develop better baseline measures, and (b) clarify how external factors
          (those factors outside the Agency's control or influence) affect its performance.

Measuring the Extent of Progress Uncertain

          Measuring progress with respect to long-term outcomes is difficult for two
          reasons. First, EPA has limited State reporting requirements. The reporting
          requirements shown in Table 4.1 are generally focused on outputs from program



                                                29

                  activities, not long-term outcomes or results. Only the capacity development
                  reporting requirement makes mention of outcomes (see Table 4.1).

Table 4.1: Selected SDWA Reporting Requirements
                                                                                                   Required or
                                                                                                 Recommended
  SDWA Activity                         Reporting Requirements (Outputs)                          for Reporting

Source Water         States submit a source water assessment program.                            Required
Assessment
Program              States report number of assessments completed.                              Required
Source Water         States report percentage of source water areas that have source water       Recommended
Protection           protection strategies implemented.
Operator             States submit their operator certification programs to EPA for review and   Required
Certification        approval.
                     Annual Operator Certification Program Submittal – States report number of   Recommended
                     water systems required to have a certified operator and number of water
                     systems without an Operator in Responsible Charge.
Capacity             With each year's capitalization grant application, States must summarize    Required
Development          the results of assessments of system T/M/F capacity conducted in the
                     preceding year. This information should include summary statistics on the
                     numbers, types, and sizes of systems assessed and the outcome of the
                     assessments. It should also include any changes the State is planning to
                     make to assessment methodology.

Infrastructure       Intended Use Plan – A plan that identifies the intended uses of the funds   Required
                     available to the State loan fund.
                         • List of projects
                         • Criteria to distribute the funds
                         • Financial status and short / long-term goals of State loan funds
Consumer             Water systems certify to States that they have issued CCRs to their         Required
Confidence           drinking water customers.
Reports


                  In addition, the reporting of recommended information is inconsistent across
                  States. While Arkansas' 2003 Operator Certification Report lists the number of
                  water systems lacking a certified operator, Hawaii's Operator Certification Report
                  for State Fiscal Year 2004 simply lists the number of public water systems that
                  have at least one certified operator on staff. Oklahoma's Operator Certification
                  Report also omits any information about the number of water systems lacking a
                  certified operator. Had all States followed the recommended reporting format,
                  EPA might be able to use this information to help reach 95-percent compliance
                  with drinking water regulations.

                  Second, the integration of drinking water protection activities makes it difficult to
                  isolate the effect of any one provision on compliance with drinking water
                  regulations. Three States (Hawaii, New York, and South Dakota) claim that high
                  compliance rates are evidence of adequate system T/M/F capacity. However, the



                                                        30

          integrative nature of the SDWA provisions makes it difficult to isolate the effect
          of any one provision on compliance rates. While systems that are in compliance
          with drinking water regulations may be systems with adequate T/M/F capacity,
          other factors can also influence system compliance. CCRs, for instance, may
          foster public support for the rate increases necessary to maintain adequate water
          system infrastructure.

Despite Uncertainty, Efforts Made to Better Measure Performance
          EPA and States are trying to better measure SDWA outputs and outcomes. The
          Agency is developing measures for source water protection and capacity
          development. Pennsylvania, meanwhile, is using both quantitative and qualitative
          methods to track changes in water system capacity over time. Oklahoma
          developed a method to review the effects of infrastructure improvement projects
          as well. Oklahoma staff members rank DWSRF loan applicants for assistance.
          After projects are completed, the staff members return to re-evaluate the water
          system and determine the extent to which DWSRF funding contributed to public
          health protection and SDWA compliance

          Source Water Protection – In March 2005, EPA issued final guidance on source
          water program measures in response to recommendations from the OIG for such
          measures. The guidance establishes three measures for source water protection
          implementation that will aid efforts to report progress.

          T/M/F Capacity – EPA is developing measures for capacity development
          activities in response to OIG recommendations. A capacity development tool,
          due out in October 2005, promises to help EPA's regional offices better assess
          State capacity strategies for new and existing drinking water systems. EPA also
          expects to issue a national capacity development plan by December 2005. This
          strategy, together with the capacity development tool, will support the
          development of new capacity development program measures.

          In Pennsylvania, staff members use a Two Tier rating system to measure the
          effectiveness of the State’s capacity development program over time. Tier I
          ratings are quantitative in nature. If a system does not have a capital budget plan
          in place, for example, it receives five points. In addition, State field staff
          members use their familiarity with systems to generate more subjective Tier II
          rankings of system capacity needs. If system scores improve over time, then the
          system's T/M/F capacity is likely improving as well. Table 4.2 provides an
          example of how Pennsylvania water systems are rated. Lower Tier I scores
          demonstrate improvement as do Tier II scores, which grade from "high" (meaning
          the system should receive "high" priority for capacity assistance) to "low."




                                           31

         Table 4.2: Example of Capacity Assessment Rating – Knoxville Borough Water Department,
         Tioga County, Pennsylvania
                   2001                          2002                           2003
                Tier I - 30                   Tier I – 20                     Tier I – 15
               Tier II - high              Tier II - medium                  Tier II – low


         Infrastructure – An effort is being made to better measure the impact of drinking
         water infrastructure improvements as well. The SDWA Amendments require that
         States prioritize DWSRF projects that are necessary to ensure compliance with
         the requirements of the Act. The SDWA Amendments also require that States
         prioritize projects that address serious risks to public health, but it is difficult to
         assess how effective the DWSRF program is in delivering these public health
         benefits. In Oklahoma, however, State staff have taken additional steps to
         measure the extent to which DWSRF-funded infrastructure projects foster public
         health protection and SDWA compliance

         As the SDWA requires, Oklahoma staff rank applicants for DWSRF funding in
         the State’s annual Intended Use Plan. Those projects that receive sufficiently
         high scores receive funding. After DWSRF-funded projects are completed,
         however, the same ranking system is also used to re-score these projects. The
         State reports the percent point reduction for each project, thereby allowing one to
         see the extent to which DWSRF funding contributed to infrastructure projects that
         foster public health protection and SDWA compliance.

         EPA also hopes to tie DWSRF activity to compliance at the national level. In
         Fiscal Year 2007, EPA will begin tracking, as part of the PAM process, the
         number of DWSRF projects that return systems to compliance. None of the
         Agency's Fiscal Year 2006 PAMs had explicitly connected program activities to
         compliance with drinking water quality regulations.

Program Assessment Rating Tool Underscores Importance of
Performance Measures
         The Program Assessment Rating Tool highlights the importance of performance
         measures. The tool was developed by the Office of Management and Budget to
         assess and improve program performance. When the 2006 Budget was
         formulated, the tool was used to determine whether programs produced their
         intended results. The President has recommended significant spending reductions
         or outright elimination of programs that fail to demonstrate results.

         The Office of Management and Budget’s recent Program Assessment Rating Tool
         review of EPA's DWSRF program underscores the importance of demonstrated
         program results. The review found that while the DWSRF's public health goals
         were clear, EPA did not link annual DWSRF performance goals to public health
         protection. The Congressional Budget Office cited this failure when it considered



                                           32

         the savings associated with the elimination of Federal grants for wastewater and
         drinking water infrastructure in the February 2005 edition of Budget Options.

Conclusions
         Although the SDWA provisions are integrative in nature, it is vital that an effort
         continue to be made to measure the outcomes associated with individual SDWA
         provisions. EPA's work on outcome measures is part of a larger effort to connect
         program activities to drinking water protection goals. Because drinking water
         protection resources are limited at the Federal, State, and system levels, it is
         important that efforts to improve water system performance be evaluated for their
         effectiveness. Performance measurement can help decision makers determine
         whether activities are producing their intended results and where scarce resources
         should be invested.

Recommendation
         We recommend that the Assistant Administrator for Water:

         4-1 	   Continue to develop measures for individual SDWA provisions like
                 capacity development. We encourage the Assistant Administrator for
                 Water to support the drinking water program's efforts to develop
                 indicators based on a logic model for the Public Water System
                 Supervision Program.

Agency Response and OIG Evaluation

         EPA responded to Recommendation 4-1 in a July 21, 2005, letter to the OIG (see
         Appendix C). We revised the recommendation based on its comments. The
         Agency noted that it is currently engaged in a number of efforts to identify
         measures that better demonstrate the effectiveness of activities undertaken to
         protect drinking water quality and public health. EPA's Office of Ground Water
         and Drinking Water is focusing on identifying measures that address program
         outcomes. Many individual Agency programs, meanwhile, have developed
         internal measures, some of which are focused on program outputs, that help EPA
         staff understand where additional efforts are needed. We consider these actions to
         be appropriate for the recommendation.




                                         33

                                                                                            Appendix A

                 Specific Provisions of 1996 SDWA Amendments
                               (Public Law 104-182)

Source Water Assessment, §1453(a)
   States are required to conduct a source water assessment of all public water supply systems
   within their jurisdiction and to make this information available to the public.

Source Water Protection Program, §1454(a)
   A State may establish a source water quality protection partnership program with an owner or
   operator of a Community Water System, municipal or local government, to assist in the local
   development of a voluntary partnership to reduce the presence of contaminants in drinking water,
   obtain financial or technical assistance, or develop strategies for long-term source water protection.

Operator Certification, §1419(a)
   EPA must establish guidelines specifying the minimum standards for operator certification and
   recertification for operators of community water systems and non-transient non community
   water systems.

Operator Certification Expense Reimbursement Grant, §1419(d)
   Provides reimbursement for the costs of training and certification for persons operating systems
   serving 3,300 persons or fewer.

Capacity Development
§1420(a)
   To avoid losing a portion of the DWSRF grant, States must have the legal authority or other means
   necessary to ensure that new systems demonstrate T/M/F capacity prior to commencing operation.
§1420(c)(1)(C)
   To avoid losing a portion of the DWSRF grant, States must develop and implement a strategy to
   assist public water systems in acquiring and maintaining T/M/F capacity.

State Resources, §1443 (a)(7)
   Authorizes $100,000,000 for each of fiscal years 1997 through 2003 for the Public Water System
   Supervision Program.

State Revolving Loan Funds, §1452(a)(2)
   Authorizes EPA to award capitalization grants to States, which in turn may provide low cost loans
   and other types of assistance to eligible public water systems to finance the costs of infrastructure
   projects needed to achieve or maintain compliance with SDWA requirements.

Public Notification, §1414(c)(4)
   Each community water system is to mail to each customer of the system at least once annually a
   report on the level of contaminants in the drinking water purveyed by that system (i.e. CCR).



                                                    34

                                                                                  Appendix B

                          Prior SDWA-Related Reports

  Organization                              Title                                Date Issued
EPA OIG          Source Water Assessment and Protection Programs Show         March 2005
                 Initial Promise, But Obstacles Remain (Report No.
                 2005-P-00013)
                 States Making Progress on Source Water Assessments, But      May 2004
                 Effectiveness Still to be Determined (Report No.
                 2004-P-00019)
                 Impact of EPA and State Drinking Water Capacity              September 2003
                 Development Efforts Uncertain (2003-P-00018)
Association      Public Health Protection Threatened by Inadequate            April 2003
of State         Resources for State Drinking Water Programs
Drinking Water
Administrators
Government       Water Infrastructure: Information on Financing, Capital      August 2002
Accountability   Planning, and Privatization (GAO-02-764)
Office (GAO)
                 Drinking Water: Key Aspects of EPA's Revolving Fund          January 2002
                 Program Need to be Strengthened (GAO-02-135)
                 Water Infrastructure: Information on Federal and State       November 2001
                 Financial Assistance (GAO-02-134)
                 Drinking Water: Spending Constraints Could Affect States'    August 2000
                 Ability to Implement Increasing Program Requirements
                 (GAO/RCED-00-199)
                 Safe Drinking Water Act: Progress and Future Challenges in   January 1999
                 Implementing the 1996 Amendments (GAO/RCED-99-31)




                                               35

                                                                                    Appendix C

                         Agency Response to Draft Report


MEMORANDUM

SUBJECT:       Progress Report on Drinking Water Protection Efforts
               Assignment No. 2004-000317, Draft Report

FROM:          Benjamin H. Grumbles
               Assistant Administrator for Water

TO:            Nikki Tinsley
               Inspector General

        Thank you for the opportunity to comment on your Office’s draft report, Progress Report
on Drinking Water Protection Efforts. I will respond briefly to the overall results, with more
detailed technical comments attached.

        The report provides a fair overview of the range of tools that were made available to
states by the 1996 Amendments to the Safe Drinking Water Act (SDWA). Notwithstanding
some of the budgetary and programmatic obstacles states have faced, we believe the flexibility
made available by the Act has proven to be critical in helping them to implement programs in a
manner that speaks to their individual needs.

        With flexibility, however, comes accountability. Your report encouraged EPA to
continue to develop and establish measures for the drinking water program. We are currently
engaged in a number of efforts to identify better measures for demonstrating the effectiveness of
activities carried by EPA and states to protect drinking water quality and public health. For the
purposes of supporting EPA’s strategic plan, we are focused on identifying high-level measures
that speak directly to the outcomes that result when activities are used in a coordinated fashion.
Many of the individual programs have also developed internal measures, some of which are
focused on outputs that help program managers understand where additional effort is needed.

        Your draft report formally recommends that EPA identify methods to improve Consumer
Confidence Reports (CCR) using the National Drinking Water Advisory Council (NDWAC) or
another work group. We agree with you that CCRs provide important information to customers
about the source of their drinking water, contaminants that have been detected in their drinking
water, and how the detected levels compare to drinking water standards. Our review of
information from Gallup Surveys and the Safe Drinking Water Hotline indicates that the CCRs
are being read by some customers. However, there is always room for improvement.

       In the fall of 2005, EPA is convening a working group to the NDWAC to evaluate public
information requirements under the SDWA. The working group’s primary focus will be on
providing recommendations to EPA and strategies to improve the message and delivery of public


                                                36

education materials distributed by water utilities when a lead action level is exceeded under the
Lead and Copper Rule. However, EPA is also looking for suggestions on how it can better assist
utilities with risk communication challenges related to drinking water. Water utilities and States
have indicated a need for assistance in implementing risk communication principles when
dealing with public health issues related to drinking water. We expect that efforts carried out by
this working group will also help the Agency develop information to improve CCRs.

       Thank you again for the opportunity to comment on the draft report. If you have
questions regarding our comments, please contact Cynthia C. Dougherty, Director, Office of
Ground Water and Drinking Water, at (202) 564-3750.

Attachment




                                               37

                              Comments on Draft IG Report
                    Progress Report on Drinking Water Protection Efforts

Evaluation Report

At a Glance

•	    3rd paragraph, last sentence. The drinking water program is focused on improving
      drinking water quality so that public health is protected. Would recommend adding “and
      public health protected” to the end of the sentence.

•	    Sidebar, 3rd bullet under Background. The bullet should be re-worded to more
      accurately capture intent. Recommend: “Improving the technical, managerial, and
      financial capacity of water systems”.

Chapter 1

•	    page 1, under Purpose, bullet b. Please add “and certified” at the end of the phrase
      (Operators... are adequately trained and certified)

•	    pages 1 and 2, under Background, 2nd paragraph: Would recommend modifications to
      some of the sentences to more clearly indicate realistic roles. Water system managers are
      more likely to take action to address potential contaminants than operators. Would
      recommend changing 3rd sentence to “If water system managers are knowledgeable of
      potential contaminants (as a result of the source water assessments), then they have an
      opportunity to implement source water protection plans or otherwise ensure that
      treatment can remove the contaminant.”

•	    page 2, 1st full paragraph. Please note that the Navajo Nation has primacy for drinking
      water.

Chapter 2

•	    page 4, paragraph under EPA efforts. This paragraph seems to be combining both
      assessment and protection activities without making any distinction between the two. It
      is incorrect to imply the same level of funding and oversight for assessment and
      protection activities. We made a similar comment in responding to the IG report Source
      Water Assessment Program Shows Initial Promise, But Obstacles Remain.

      We recommend that the report clearly distinguish between the Source Water Assessment
      Program (SWAP), i.e., the program Congress authorized under Section 1453 of the Safe
      Drinking Water Act (SDWA), and source water protection strategies and activities, which
      are voluntary at the national, state and local levels. The draft report should use the term
      SWAP only to refer to assessment program activities. All other activities should be
      referred to as source water protection. This difference comports better with SDWA’s
      statutory approach and the general use of these terms in the field.



                                              38

•	   page 5. 2nd paragraph. The Source Water Assessment and Protection Programs
     Guidance was published in 1997 at the initiation of the program. It does not appear to be
     so timely in discussing where we are now. I would recommend also talking about how
     the Office of Ground Water and Drinking Water is reaching out beyond its own program
     to encourage use of other tools to protect sources of drinking water. A suggested
     paragraph is provided below. Alternatively, you could talk about how we are working
     with Clean Water Act programs to make sure that drinking water sources are identifies
     and protected by water quality standards and associated CWA programs (we have
     Strategic Plan measures to drive progress).

     EPA is communicating the importance of source water assessments as a tool to assist in
     the implementation of drinking water standards. The Agency is also reaching out to other
     programs to provide them information about how their authorities can help protect
     sources of drinking water. For example, in 2004 the Office of Ground Water and
     Drinking Water and Office of Underground Storage Tanks entered into a Memorandum
     of Understanding aimed at reducing the threat that leaking underground storage tanks
     (USTs) pose to drinking water in communities throughout the nation. EPA is
     encouraging that EPA Regional staff and states target UST compliance inspections in
     source water areas.

•	   page 6, paragraph under Third Party Involvement. The draft report states that “A
     National Rural Water Association staff person stated that the Association has completed
     and is presently implementing approximately 100 Source Water Protection Programs”.
     This number is inaccurate and low, unless they’re just talking about the few states
     mentioned earlier in the same paragraph ( Arkansas, North Dakota and South
     Dakota).You may wish to incorporate the following info on the NWRA partnership:

     There are 47 wellhead technicians operating in 48 states (not AK or HI), resulting in
     close to 10,000 CWSs with wellhead protection plans.

     As of March 2005, 19 source water protection specialists were working in 361 project
     areas across the country. There will soon be source water protection specialists in 34
     states. This should increase the systems served to approximately 1900, and increase the
     population served by NRWA specialists to roughly 6.5 million.

•	   page 6, 1st paragraph under EPA efforts (for Op Cert), last sentence. It would better to
     refer to the “Expense Reimbursement Grant Program” when discussing the program and
     refer to it as a grant when you are referring to specific grants to states.

•	   page 7. 1st paragraph. Would rewrite first paragraph to clarify information.

     “Small system operators were reported as often lacking the time or resources necessary to
     attend training (see Chapter 3). The Expense Reimbursement Grant program, funded
     from the national DWSRF appropriation, provided grants to States to help offset the costs
     of training small water system operators. As of December 2004, States had used $14



                                             39

     million of the Expense Reimbursement Grant Program’s allocation of $135 million for
     activities including: ...[bulleted list]”

•	   page 7, 1st paragraph under State Efforts. Would recommend putting “Operator in
     Responsible Charge” in quotes because it seems more like a term of art.

•	   page 7. 1st full paragraph. As noted before, recommend referring to “Expense
     Reimbursement Grant Program”.

•	   page 8, 9. General Comment. It is unfortunate that the IG did not focus on the value that
     the New Systems Program under the capacity development program has had. It would
     have been interesting to hear how the eight states have developed programs to ensure that
     new systems have adequate capacity, and are therefore less likely to become problems at
     a later time.

•	   page 8, 1st full paragraph, item (3): re-word to read: “consider operator certification and
     training a water system capacity building activity that should be supported through a
     system’s overall operating budget”.

•	   page 10. 2nd bullet under State Efforts. Oklahoma is not unique. All states are required
     to evaluate a utility’s technical, financial and managerial capacity as a condition for
     funding under the DWSRF program - it’s in the law and regulations for the program.

•	   page 11, 2nd paragraph. This paragraph makes it seem like the only activities eligible
     under the DWSRF set-asides are related to source water protection. This is not accurate.
     Also would recommend giving a sense of how funds have been taken for set-asides
     Would recommend changing first sentence as follows. “While states can fund
     infrastructure loans with their DWSRF allotments, they may also use a portion of this
     money to support their drinking water programs, activities that enhance water system
     management (e.g., capacity development, operator certification, technical assistance) and
     source water protection. Through June 2004, States had reserved 16% of their DWSRF
     grants to fund these types of activities.”

•	   page 11, 1st paragraph under State Efforts, first sentence. Should note 1% statutory
     minimum. “EPA is responsible for the oversight of DWSRF funds, with States receiving
     annual allocations in proportion to the needs identified in EPA’s periodic Needs Surveys
     (provided that each State receive a 1% minimum share).

•	   page 11, 1st paragraph under State Efforts, last sentence. States must develop an IUP
     every year. Recommend be changed to “All of the States visited had created an Intended
     Use Plans.”

•	   page 11, 2nd paragraph under State Efforts. This paragraph lacks relevance because it
     gives no sense of what the percentages are related to and the table is mislabeled. Table
     2.1 should be renamed to “DWSRF Assistance Provided to Projects as a Percent of Funds
     Available”. Recommend rewriting paragraph as follows.



                                              40

     “EPA tracks the programmatic and financial use of funds in the program. Through June
     2004, states had provided close to $8 billion for 3,800 drinking water infrastructure
     projects. States had used 83% of the total funds available in the program to provide
     project assistance. The average DWSRF utilization rate for the eight States visited (80%)
     was slightly less than the national average; though this average is affected by Hawaii’s
     low utilization rate of 32% (see Table 2.1).”

•	   page 12, 1st paragraph. The report should expand on what EPA has done (which is
     considerable). Recommend adding a sentence after the first sentence. “The Agency has
     developed reports and fact sheets to share state experiences in the program. EPA has also
     provided extensive training on financial and programmatic issues to state staff working in
     the DWSRF and Clean Water SRF programs.”

•	   page 16. 1st and 2nd paragraph. The two paragraphs appear to be redundant. At a
     minimum, the first sentences in each paragraph are repetitive.

•	   page 16, Conclusions, 3rd sentence. The current wording makes it sound like a new class
     of systems just came into effect. For clarity, recommend that sentence be reworded as
     follows. “All community and nontransient noncommunity water systems (such as
     schools and hospitals) are now required to have certified operators, and those operators
     are required to take the appropriate training to ensure proper system operations.”

•	   page 16, Conclusions, 4th sentence. The creation of formal state capacity development
     programs is enabling them to provide more targeted assistance. Therefore, recommend
     that sentence be changed to reflect this. “Water systems are receiving more targeted
     T/M/F capacity assistance.”

     Chapter 3

•	   page 17, 2nd bullet. As stated, this is not clear and may not fairly represent concerns we
     have heard. Recommend rewriting as “There is tension between using the DWSRF set-
     asides to fund staff and programs and using funds for water system loans.”

•	   page 20, 2nd paragraph under Protecting Source Waters. The report states that “Until
     recently, State source water protection work was also complicated by the fact that EPA
     had not issued final measures for the source water protection program”. It is an
     overstatement to say that protection work was complicated by this. It is more accurate to
     say that EPA’s ability to report on what has been accomplished was more difficult until
     parties agreed on appropriate national measures.

     You might want to consider changing last sentence to the following to more completely
     describe the issue. “EPA’s guidance for reporting on source water assessment and
     protection measures, issued on March 7, 2005, will help States set defined measurable
     goals for their source water protection programs, which is a key building block to overall
     state watershed approaches.”



                                              41

     Chapter 4

•	   page 25, 1st paragraph, last sentence. Sentence seems too absolute - there might be more
     gray than black & white. “Measuring long-term outcomes may help to determine if the
     program’s results justify further funding.”

•	   page 26, paragraph in middle of page. Would edit sentence to more completely describe
     purpose of measure. “The PAMs, collectively, are designed to help EPA ensure that the
     public’s exposure to contaminants in drinking water is reduced by ensuring that 95...”

•	   page 27, 4th paragraph. It appears that maybe something was lost in the editing process.
     This paragraph has no context - and hasn’t been discussed previously. It’s difficult to tell
     if it’s referring to a greater Agency effort of the effort in the OGWDW Drinking Water
     Protection Division to create a logic model for the Public Water System Supervision
     Program.

•	   page 28, in Table 4.1, Capacity Development row. We are uncertain of the source of the
     current information in the table. On June 1, 2005, the program released new reporting
     content which is not reflected in the current description. We recommend the text be
     changed to reflect the current requirements.

     “States report annually on their targeted efforts to improve the technical, managerial, and
     financial capacity of public water systems, which includes a discussion of the broad range
     of activities designed to assist systems. EPA issued new, streamlined reporting content
     to states on June 1, 2005 to more effectively and timely evaluate program
     implementation, focusing on outcomes. The reports are due to EPA within 90 days of the
     state or federal fiscal year.”

•	   page 28, in Table 4.1, Infrastructure row. The DWSRF program also requires a Biennial
     (or Annual) Report that reports on the actual use of funds. EPA also collects annual
     DWSRF programmatic and financial information from states to help report on the
     program.

•	   page 28, 1st paragraph under table. Would delete last part of the sentence (after
     “information”) or edit to more clearly state intent. It’s dubious whether use of a reporting
     format will help us reach the 95 percent compliance rate.

•	   page 29, Under T/M/F Capacity, 3rd sentence. Please reword to clarify that we are
     developing a Capacity Development Strategic Plan, not a strategy. Also our assessment
     tool will assist the regions in assessing the New Systems Program as well as the
     Existing Systems Strategies. This is not reflected in the paragraph.

•	   page 30, 3rd paragraph under Infrastructure. EPA had always collected information on
     the number of DWSRF projects that return systems to compliance; it’s just that it will
     now be formally reported as part of the PAM process.



                                              42

•	   page 31, recommendation 4-1. Similar to the comment on page 27. If this is about the
     PWSS logic model, then the text is written too broadly. If it is focused on the PWSS
     effort, the second sentence should read “We encourage the Assistant Administrator for
     Water to support the drinking water program’s efforts to develop indicators based on a
     logic model for the Public Water System Supervision program.

•	   page 32, Capacity Development Row: To avoid DWSRF withholding, states are also
     required to have a program to ensure that new systems have capacity (see SDWA
     1420(a)). Please add sentence to reflect this fact. “States must also have the legal
     authority or other means necessary to ensure that new systems demonstrate TMF capacity
     prior to operation.”

     Supplemental Report

•	   page S-1, 1st paragraph under Outputs/Outcomes. Virginia’s wellhead program was
     approved by EPA in June 2005, so text should be amended to indicate that all 50 states
     now have approved wellhead programs.

•	   page S-1, 2nd paragraph under Outputs/Outcomes. 2nd sentence refers to Oklahoma
     prohibiting “open-top reservoirs”. It is more likely that they closed “open-top finished
     water reservoirs” - not the big raw water supply reservoirs, which are likely not covered.
     As an aside, it’s dubious whether covering finished water reservoirs qualifies as “source
     water protection”.

•	   page S-2, 1st paragraph under Outputs/Outcomes. Per earlier comments, recommend that
     report update source water assessment data. The last sentence should be corrected to
     reflect accurate information on NRWA (see comment for page 6). Also, the last sentence
     should be changed to indicate that plans “are being implemented” because it is an on-
     going process.

•	   page S-4, 1st paragraph: According to Table B-1, all eight states (not seven) had some
     form of an operator certification program prior to the 1996 amendments.

•	   page S-5, 1st paragraph under Changed Activities. 2nd sentence. “Additionally, Congress
     authorized the Federal Expense Reimbursement Grant program ....”

•	   page S-18, Needs Estimates. You might want to update report to reflect new Needs
     Survey (released in June 2005). Total 20 year needs were $277 billion (in 2003 dollars).

•	   page S-21, 1st paragraph. Table E-2 is mislabeled - it should be “Cumulative Percent
     Expended” To give a more complete story, would recommend changes to text.

     “All States rely on DWSRF set-aside funding to implement their drinking water
     protection activities. Through June 2004, the eight States reserved $247.2 million for set-
     asides, which was 23.7% of their grants (compared to national average of 16%). Table E-



                                             43

2 lists the cumulative percent of the reserved set-aside funds that had been expended by
the States through June 2004. ...”.




                                        44

                                                                            Appendix D

                                      Distribution

Office of the Administrator
Assistant Administrator, Office of Water
Director, Office of Ground Water and Drinking Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Inspector General




                                             45

